WAI V ER
SUPREME COURT OF THE UNITED STATES
No.

20-8412

Edelmiro Duarte

Snap-On Incorporated, et al.
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Snap-On Incorporated

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

/s/ Scott A. Cole

Signature:
Date:

7/21/21

(Type or print) Name

Scott A. Cole
Mr.

Ms.

Mrs.

Firm

Cole, Scott & Kissane, P.A.

Address

9150 South Dadeland Blvd., Suite 1400

City & State

Miami, FL

Phone

305-350-5346

Miss

Zip 33156
Email

scott.cole@csklegal.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Edelmiro Duarte, Pro Se Petitioner (via U.S. Regular Mail and Certified Mail/Return Receipt
Requested); and Caryn L. Bellus, Esq., Counsel for Co-Appellee, Norman Mullins (via Electronic Mail).

